SUPREME COURT OF THE UNITED STATES

HEATHER P. HOGROBROOKS HARRIS,
Petitioner,
v. Docket No. 20-5697
JIMMIE L. SMITH.
Respondent.
ON PETITION FOR WRIT OF CERTIORARI
PROOF OF SERVICE

I, Amber Griffin Shaw, do hereby certify that
on this date, October 15, 2020, as required by
Supreme Court Rule 29, I have served the enclosed
Response to Writ of Certiorari, by United States
mail properly addressed with first-class postage
pre-paid, or by delivery to a third-party commercial
carrier for delivery within 3 calendar days, on:

Heather P. Hogrobrooks Harris
579 Byron Drive

Memphis, TN 38109
901-494-1474

This the 15th day of October, 2020.

 

Ambek Griffin Shaw
